                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL                        ~ -'   .-
                                                    OFFICE OF INVESTIGATIONS
                                                                                                     l:'·-
                                             CLOSEOUT MEMORANDUM

Case Number: 1-09110066                                                                    Page 1 ofl



         This investigation was initiated pursuant to a proactive review l of awards with significant
         amount of funds budgeted for participant support. A review of NSF databases found an NSF
         award2 made to an institution3 with a large amount budgeted for partiCipant support.

         We received and reviewed financial information from the grantee institution to determine
         whether the appropriate amount of funds had been spent on participant support. Our review
         found the institution had spent more than requireq. on participant support.
                                                                              "
         Accordingly, this case is closed.




NSF OIG Form 2 (ll/02)
